HHS/OIG-Audit--"Review of Medicaid Enhanced Payments to Public Providers and the Use of Intergovernmental Transfers by the State of Nebraska, (A-07-00-02076)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Enhanced Payments to Public Providers and the Use
of Intergovernmental Transfers by the State of Nebraska," (A-07-00-02076)
February 22, 2001
Complete
Text of Report is available in PDF format (1.3 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out a method used by Nebraska to obtain additional
Federal Medicaid funds by circumventing the Medicaid requirement that expenditures
be a shared Federal/State responsibility. For fiscal years 1998 through 2000
Nebraska made enhanced payments to public nursing facilities totaling $227
million, generating about $139 million in Federal financial participation.
The nursing facilities retained about $1.5 million and $225.5 million was returned
to the State for other uses. For the funds transferred back to the State, the
State share of the enhanced payments ($88 million) was returned to the Nebraska
General Fund and the remaining $137.5 million in Federal matching funds was
designated for the Nebraska Health Care Trust Fund. Because the $225.5 million
was returned to the State, it appears that the State did not incur an expenditure
for which Federal matching funds may be claimed. Among other things, we recommended
that the Health Care Financing Administration (HCFA) take immediate action
to place a control on the overall financing mechanisms being used by the State
to circumvent the Medicaid program requirement that expenditures be a shared
Federal/State responsibility. The HCFA concurred and to address the problem
has issued new regulations to be implemented over a transition period to become
fully effective on October 1, 2008. During this transition period we estimate
the Federal Government will save $142 million in Nebraska alone.